No.

IN THE
SUPREME COURT OF THE UNITED STATES
CARINA CONERLY- PETITIONER
VS.
SHARIF TARPIN - RESPONDENT(S)

PROOF OF SERVICE

, do swear or declare that on this date,
Marilyn Tillman-Conerlv
L
2021, as required by Supreme Court Rule 291 have served the enclosed MOTION
June 4
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI,
MOTION FOR LEAVE TO FILE SUPPLEMENTAL APPENDIX, DERCLARATION OF PETITIONER,
CARINA CONERLY, on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by deliveiy to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Sharif Tarpin_______________________________
6048 Riverside BL Unit A-13
Sacramento. CA 95831
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

June 4

,2021

S'

